No. 20-A90

In the Supreme Court of the United States
AGUDATH ISRAEL OF AMERICA, AGUDATH ISRAEL OF KEW GARDEN HILLS, AGUDATH
ISRAEL OF MADISON, RABBI YISROEL REISMAN, STEVEN SAPHIRSTEIN,
Applicants,

v.

ANDREW M. CUOMO, IN HIS OFFICIAL CAPACITY AS GOVERNOR OF NEW YORK,
Respondent.
To the Honorable Stephen Breyer, Associate Justice of the United States
Supreme Court and Acting Circuit Justice for the Second Circuit
CERTIFICATE OF SERVICE
I, Stephanie Hall Barclay, a member of the Bar of this Court and counsel for
the amici on the accompanying Motion by The Muslim Public Affairs Council,
Religious Freedom Institute’s Islam and Religious Freedom Action Team, and Asma
Uddin, with Attached Proposed Amicus Curiae Brief in Support of Applicant’s
Emergency Application for Writ of Injunction, for Leave (1) to File the Brief; and (2)
to Do So without Ten Days’ Advance Notice to the Parties, certify that on this 17th
day of November, 2020, I caused a copy of the motion and amicus brief to be served
electronically per the parties’ consent on the following:
Avi Schick
Troutman Pepper Hamilton
Sanders LLP
875 Third Avenue
New York, NY 10022
avi.schick@troutman.com
Counsel for Respondent

Andrea Oser
Deputy Solicitor General
Office of the New York State
Attorney General
28 Liberty Street
New York, NY 10005
Andrea.Oser@ag.ny.gov
Counsel for Respondent

I further certify that all parties required to be served have been served.

Stephanie Hall Barclay

